<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 116-22]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                SUBCOMMITTEE ON STRATEGIC FORCES HEARING

                                   ON

                      FISCAL YEAR 2020 PRIORITIES

              FOR DEPARTMENT OF DEFENSE NUCLEAR ACTIVITIES
                               __________

                              HEARING HELD
                             MARCH 28, 2019


                                     
                [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                
                
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-883                     WASHINGTON : 2020                  

                                     
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                    JIM COOPER, Tennessee, Chairman

SUSAN A. DAVIS, California           MICHAEL R. TURNER, Ohio
RICK LARSEN, Washington              JOE WILSON, South Carolina
JOHN GARAMENDI, California           ROB BISHOP, Utah
JACKIE SPEIER, California            MIKE ROGERS, Alabama
SETH MOULTON, Massachusetts          MO BROOKS, Alabama
SALUD O. CARBAJAL, California        BRADLEY BYRNE, Alabama
RO KHANNA, California                SCOTT DesJARLAIS, Tennessee
WILLIAM R. KEATING, Massachusetts    LIZ CHENEY, Wyoming
KENDRA S. HORN, Oklahoma, Vice 
    Chair
               Grant Schneider, Professional Staff Member
                Sarah Mineiro, Professional Staff Member
                           Zach Taylor, Clerk
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

          <greek-l>STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Chairman, 
  Subcommittee on Strategic Forces...............................     0
Turner, Hon. Michael R., a Representative from Ohio, Ranking 
  Member, Subcommittee on Strategic Forces.......................1 deg.

                               WITNESSES

Clark, Lt Gen Richard M., USAF, Deputy Chief of Staff, Strategic 
  Deterrence and Nuclear Integration, Headquarters, U.S. Air 
  Force; accompanied by Lt Gen Arnold W. Bunch, Jr., USAF, 
  Military Deputy, Office of the Assistant Secretary of the Air 
  Force for Acquisition..........................................     6
Hyten, Gen John E., USAF, Commander, United States Strategic 
  Command........................................................     4
Trachtenberg, Hon. David J., Deputy Under Secretary of Defense 
  for Policy, Department of Defense..............................     1
Wolfe, VADM Johnny R., Jr., USN, Director, Strategic Systems 
  Programs.......................................................     5

                                APPENDIX

Prepared Statements:

    Clark, Lt Gen Richard M......................................    75
    Cooper, Hon. Jim.............................................    27
    Hyten, Gen John E............................................    37
    Trachtenberg, Hon. David J...................................    28
    Wolfe, VADM Johnny R., Jr....................................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bishop...................................................    89
    Mr. Lamborn..................................................    89

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    93
    Mr. Garamendi................................................    94
    Mr. Keating..................................................    96
    Mr. Larsen...................................................    94
    Ms. Speier...................................................    95
    Mr. Wilson...................................................    93
     
     
     FISCAL YEAR 2020 PRIORITIES FOR DEPARTMENT OF DEFENSE NUCLEAR 
                               ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, March 28, 2019.
    The subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 2118, Rayburn House Office Building, Hon. Jim Cooper 
(chairman of the subcommittee) presiding.
    Mr. Cooper. The subcommittee will come to order. First, I 
would like to ask unanimous consent that opening statements be 
inserted for the record. Hearing no objection, that will be 
done.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 27.]
    Mr. Cooper. And second, I would like to ask our unusual 
unanimous consent so that members of the full committee, like 
Mr. Lamborn, are also able to participate in the subcommittee 
questioning, after subcommittee members have had a chance to 
ask their questions.
    Hearing no objection--is the gentlemen asking for a 
recorded vote?
    [Laughter.]
    The gentleman withdraws his questionable objection.
    I would like to welcome the distinguished witnesses before 
us today. I apologize on behalf of the House of Representatives 
that this is getting such a late start, but you know that is 
business as usual here. So since there are no opening 
statements, why don't we go ahead and hear from the witnesses.
    We are lucky to have such a distinguished panel today, and 
I appreciate all the witnesses coming, but why don't we start 
with Secretary Trachtenberg.

STATEMENT OF HON. DAVID J. TRACHTENBERG, DEPUTY UNDER SECRETARY 
          OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. Trachtenberg. Chairman Cooper, distinguished members of 
the committee, thank you for the opportunity to testify on the 
President's fiscal year 2020 budget request for nuclear forces.
    The 2018 National Defense Strategy recognizes today's 
increasingly complex global security environment, characterized 
by overt challenges to the free and open international order 
and the reemergence of strategic competition between nations.
    For decades, the United States led the world in efforts to 
reduce the role and number of nuclear weapons. Unfortunately, 
Russia and China have chosen a different path and have 
increased the role of nuclear weapons in their strategies, 
along with the size and sophistication of their nuclear forces.
    For this reason, a robust and modern U.S. nuclear deterrent 
is necessary to ensure that the reemergence of strategic 
competition does not lead to conflict or escalate to large-
scale war.
    Russia continues to prioritize high levels of defense 
spending to upgrade its nuclear forces and pursue advanced 
weapons specifically designed to counter U.S. military 
capability. Russia's nuclear modernization program covers every 
leg of its strategic triad and includes modern intercontinental 
ballistic missiles, submarine launch ballistic missiles, and 
long-range strategic bombers.
    Russia's minister of defense has stated that by 2020, 90 
percent of the country's strategic nuclear forces will be armed 
with modern weaponry. In March 2018, Vladimir Putin announced 
that Russia is developing even more new nuclear weapons 
capabilities. In addition, Russia is modernizing and expanding 
an active stockpile of approximately 2,000 non-strategic 
nuclear weapons that can be deployed on ships, bombers, 
aircraft, and with ground forces.
    China continues its expansive military modernization and 
remains focused on establishing regional dominance and 
expanding its ability to coerce U.S. allies and partners. 
Modernization of its nuclear missile forces include deploying 
advanced sea-based weapons, developing more modern road-mobile 
and silo-based missiles and testing hypersonic glide vehicles. 
The Chinese are also developing a new nuclear-capable strategic 
bomber.
    And although we remain hopeful that negotiations with North 
Korea may produce a pathway to peace and denuclearization, 
North Korea's nuclear capabilities pose a potential threat to 
our allies and our homeland and add to an already complex 
strategic picture.
    The 2018 Nuclear Posture Review reflects the Department of 
Defense's strategic priority to maintain a safe, secure, 
survivable, and effective nuclear deterrent. Nuclear forces are 
the ultimate foundation of our Nation's security. Our deterrent 
forces must be modernized to remain credible. Delay is not an 
option.
    The highest U.S. nuclear policy and strategy priority is to 
deter potential adversaries from nuclear attack of any scale 
against the United States or its allies. However, deterring a 
nuclear attack is not the sole purpose of nuclear weapons. U.S. 
nuclear forces are also intended to deter non-nuclear strategic 
attacks, assure allies and partners, achieve U.S. objectives if 
deterrence fails, and hedge against an uncertain future.
    Effective deterrence of nuclear attack and non-nuclear 
strategic attack requires ensuring that potential adversaries 
do not miscalculate regarding the consequences of nuclear first 
use, either regionally or against the United States. They must 
understand that the costs far outweigh any perceived benefits 
from non-nuclear aggression or limited nuclear escalation.
    U.S. nuclear declaratory policy is consistent with 
longstanding precepts that the United States would employ 
nuclear weapons only in extreme circumstances to defend our 
vital interests and those of our allies. Our policy also 
maintains the longstanding approach of constructive ambiguity 
regarding U.S. nuclear employment that has helped deter 
potential adversaries from nuclear coercion or aggression.
    A policy of no first use would undermine U.S. extended 
deterrence and damage the health of our alliances because it 
would call into question the assurance that the United States 
would come to defense of allies in extreme circumstances. A no 
first use policy might embolden adversaries who may perceive it 
as a weakened U.S. resolve to defend our allies and vital 
interests with every means at our disposal. It may also 
undermine U.S. non-proliferation objectives if allies felt the 
need to develop or possess their own nuclear weapons for 
deterrence.
    The 2018 NPR [Nuclear Posture Review] reaffirmed the 
conclusions of previous Republican and Democratic 
administrations that the diverse capabilities of the nuclear 
triad provide the flexibility and resilience needed for 
deterrence in the most cost-effective manner. Each leg is 
essential, complementary, and critical to ensuring no adversary 
believes it can employ nuclear weapons for any reason under any 
circumstances.
    Unfortunately, each leg of the triad is now operating far 
beyond its originally planned service life. Most of the 
Nation's nuclear delivery systems will reach their end of 
service life in the 2025 to 2035 timeframe and cannot be 
sustained further. If not recapitalized, these forces will age 
into obsolescence. Consequently, we must not delay the 
recapitalization of the triad initiated by the previous 
administration.
    The fiscal year 2020 budget request funds all critical DOD 
[Department of Defense] modernization requirements. The request 
for nuclear forces is roughly $25 billion, or roughly 3.5 
percent of the overall DOD budget. This includes $16.5 billion 
to sustain and operate our nuclear forces and $8.4 billion for 
recapitalization programs. The Department's request to 
recapitalize the nuclear enterprise is about 1.2 percent of the 
total DOD budget request.
    Mr. Chairman, I am prepared to discuss arms control at 
length, including the administration's position on both the INF 
[Intermediate-Range Nuclear Forces] Treaty and developments 
with respect to the New START [Strategic Arms Reduction] 
Treaty.
    But in the interest of time, let me conclude by stating 
that nuclear deterrence is the bedrock of U.S. national 
security. Our nuclear deterrent underwrites all U.S. military 
operations and diplomacy across the globe. It is the backstop 
and foundation of our national defense.
    A strong nuclear deterrent also contributes to U.S. non-
proliferation goals by eliminating the incentive for allies to 
have their own nuclear weapons. I urge the committee to support 
the important nuclear programs and funding contained in the 
President's fiscal year 2020 budget request.
    Thank you again for the opportunity to testify and I look 
forward to your questions.
    [The prepared statement of Mr. Trachtenberg can be found in 
the Appendix on page 28.]
    Mr. Cooper. Thank you very much, Secretary Trachtenberg.
    Now we will hear from General John Hyten.

STATEMENT OF GEN JOHN E. HYTEN, USAF, COMMANDER, UNITED STATES 
                       STRATEGIC COMMAND

    General Hyten. Thank you very much, Chairman Cooper, 
Ranking Member Turner, distinguished committee members.
    It is an honor to be here today alongside my fellow 
Department of Defense leaders. It is also a continuing 
privilege to represent the 162,000 Americans that accomplish 
the mission of my command, U.S. Strategic Command, each and 
every day.
    I want to begin by thanking the committee for your enduring 
support to our national defense. The stability afforded through 
this year's on-time budget came at a critical time for us, and 
I cannot overstate the enormous impact that it had on 
modernization efforts and our overall force readiness.
    I would also like to express my gratitude to the Armed 
Services Committee for broadening our strategic deterrence and 
space discussions over the last few years and bringing them to 
the forefront of our national dialogue. Protecting Americans 
from harm is the single most important job of our government.
    The methods we use must be the result of a robust debate 
and analytic rigor. Experts on all sides of the issue should be 
able to answer the tough questions that steer us to the best 
possible security solutions for our Nation.
    But the most important message I want to deliver today is 
that I am fully confident in my command's ability to preserve 
the peace and decisively respond in any conflict. We are ready, 
postured, and partnered for all the threats that exist today, 
and no one should doubt this.
    Our forces, our capabilities, and the strategic deterrence 
they help provide underpin and enable all joint force 
operations. They are the ultimate guarantors of our national 
and allied security.
    STRATCOM's [U.S. Strategic Command's] first priority 
mission, strategic deterrence, is not a passive mission; it is 
an active mission, it is dynamic. Our capabilities and posture 
must continue to evolve as the global threat changes. And the 
threat is changing, as Secretary Trachtenberg just described.
    Today, we are challenged by multiple adversaries, with an 
expanding range of capabilities that we must adapt to overcome 
these new threats.
    To effectively deter--and, if necessary, respond--we must 
outthink, outmaneuver, out-partner, and out-innovate our 
adversaries. Deterrence in the 21st century is an active 
mission that requires integration of all our capabilities 
across all domains.
    For over two decades, China and Russia have studied our way 
of warfare. They understand and seek to counter our long-held 
advantages. They are actively exploring new methods to exploit 
perceived vulnerabilities, and they are directly challenging us 
in areas of long-held strength.
    My focus this year is to advance operations and 
modernization of the foundation of our national strategic 
deterrent, our nuclear triad. Our ICBMs [intercontinental 
ballistic missiles], submarines, bombers, and the weapons they 
carry are unique and complementary. The triad complicates our 
adversaries' decision calculus and has been a proven deterrent 
for over 60 years.
    I will also intensify implementation as my new 
responsibility as the Department's nuclear command and control 
and communications, NC3, enterprise lead, meanwhile supporting 
a seamless transition as the Department stands up a new space 
force organization, as well.
    A strong, continuing deterrent is critical to our Nation's 
security. Nuclear war cannot be won, and therefore it must 
never be fought, and so to preserve the peace, we must be ready 
for war. Today, we are ready.
    I look forward to an on-time budget for fiscal year 2020, 
so we can sustain the momentum invigorating this Department 
right now. So thank you for the opportunity to be here today. I 
look forward to your questions.
    [The prepared statement of General Hyten can be found in 
the Appendix on page 37.]
    Mr. Cooper. Thank you very much, General, and now we will 
hear from Vice Admiral Johnny Wolfe.

    STATEMENT OF VADM JOHNNY R. WOLFE, JR., USN, DIRECTOR, 
                   STRATEGIC SYSTEMS PROGRAMS

    Admiral Wolfe. Chairman Cooper, Ranking Member Turner, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the budget priorities for nuclear 
forces and for your continued support of the Navy's deterrent 
mission.
    I am honored to be here today and I respectfully request my 
written statement be submitted for the record.
    Nuclear deterrence is the number one priority mission of 
the Department of Defense. The Navy Strategic Systems 
Program's, or SSP's, fiscal year 2020 budget supports the 
continued sustainment of that deterrent as well as the 
modernization efforts directed in the 2018 Nuclear Posture 
Review.
    Additionally, although not part of the strategic nuclear 
portfolio that I manage, the SSP budget request supports the 
hypersonic conventional prompt strike program, an effort that 
leverages SSP's unique and critical non-nuclear skill set that 
the workforce has refined over the last 60 years.
    The men and women of SSP and their predecessors have 
provided unwavering and single mission-focused support to the 
sea-based leg of the triad for over six decades. Now with a bow 
wave of development activities on the horizon, the organization 
must be prepared not only to support to today's deterrent but 
to ensure it remains a credible and effective strategic weapon 
system into the future.
    As the 14th director, it my highest honor to represent the 
men and women of SSP, comprising approximately 1,700 sailors; 
1,000 Marines; 300 coastguardsmen; 1,200 civilians; and over 
2,000 contractor personnel;
    It is my most critical goal, as the director of SSP, to 
ensure that they are poised to execute the mission with the 
same level of success, passion, and rigor, both today and 
tomorrow, as they have since our program's inception in 1955.
    Again, thank you for the opportunity to testify today on 
behalf of those who make deterrence their life's work. I look 
forward to your questions.
    [The prepared statement of Admiral Wolfe can be found in 
the Appendix on page 63.]
    Mr. Cooper. Thank you, Admiral, and now we will hear from 
Lieutenant General Richard Clark.

  STATEMENT OF LT GEN RICHARD M. CLARK, USAF, DEPUTY CHIEF OF 
     STAFF, STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION, 
 HEADQUARTERS, U.S. AIR FORCE; ACCOMPANIED BY LT GEN ARNOLD W. 
BUNCH, JR., MILITARY DEPUTY, OFFICE OF THE ASSISTANT SECRETARY 
                OF THE AIR FORCE FOR ACQUISITION

    General Clark. Good morning, Chairman Cooper, Ranking 
Member Turner, distinguished members of the committee, on 
behalf of my wingmen, Lieutenant General Arnie Bunch, and 
myself, thank you for the opportunity to discuss Air Force 
nuclear programs and policies.
    The return of great power competition is increasing the 
significance of nuclear weapons in our ever-changing strategic 
environment. Our primary strategic adversaries are modernizing 
existing nuclear and conventional systems, while pursuing new 
disruptive technology such as hypersonics, artificial 
intelligence, and cyber capabilities.
    And despite the efforts of multiple administrations to 
negotiate nuclear stockpile reductions and the role of nuclear 
weapons, neither of our competitors have followed our lead.
    In light of this, the U.S. must maintain a credible nuclear 
deterrent to promote strategic stability, protect the Nation, 
our allies, and our partners. Since the 1960s, every 
administration has recognized the critical role of the nuclear 
triad. The synergy of its three complementary legs ensures that 
we can deter strategic attack, assure our partners and allies, 
achieve strategic objectives, and hedge against future 
uncertainties.
    Modernization and recapitalization are paramount if we are 
to maintain a credible deterrent in the evolving strategic 
environment. ICBMs deny the adversary the ability to 
preemptively destroy the U.S. arsenal with a small-scale 
strike. Replacing the Minuteman III with the Ground-Based 
Strategic Deterrent will provide a responsive, safe, secure, 
and accurate weapons system capable of holding adversary 
targets at risk.
    Nuclear capable bombers are the most flexible and visible 
leg of the triad. Modernizing the B-52 and fielding the B-21 
ensures stand-off and penetrating capability far into the 
future.
    Cruise missiles such as the Long Range Standoff weapon can 
penetrate advanced air defense systems, execute multi-access 
attacks, and saturate enemy defenses. This weapon effectively 
extends the range of our bomber force, greatly complicating 
enemy defense requirements and costs.
    Nuclear command and control communications is the central 
nervous system of our nuclear deterrent. Like the triad, legacy 
NC3 systems are aging and require persistent resourcing to 
sustain and modernize. It must link the President and the 
national leaders to the force all day, every day, under all 
conditions, and without fail.
    The U.S. requires the tools necessary to prevent the most 
existential threat to our survival as a Nation. The flexible 
capabilities and complementary nature of the nuclear triad 
ensures the credibility of the U.S. deterrent while 
complicating the adversary's decision calculus.
    It is the backstop of U.S. national security. It is both 
necessary and affordable, and we must continue to support the 
critical role of the triad in defending our country and our way 
of life.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Clark can be found in 
the Appendix on page 75.]
    Mr. Cooper. Thank you very much, General Clark, and as you 
pointed out, we also are welcoming Lieutenant General Arnold 
Bunch, Jr., with us today. Appreciate your being at the witness 
table, as well.
    As I was walking into the hearing earlier, one of the 
attendees in the audience said you have today in this hearing 
four of the most important people in the world. That might be a 
little bit of an exaggeration, but it is probably not far from 
the truth, because when it comes to determining the future of 
the planet, the degree to which you bear your heavy 
responsibilities, it makes a difference.
    So thank you for joining us today.
    I want to be as considerate as possible to my colleagues 
who have joined us instead of taking an immediate flight home, 
so I will be very short in my questioning, but I thought that 
in many ways the most important sentence in all the testimony 
was what Secretary Trachtenberg said.
    Top of page 5, and he also said this orally, we must not 
delay the recapitalization of the triad and our nuclear 
command, control, and communications system initiated by the 
previous administration.
    Now, on behalf of the previous administration, I would like 
to take that as a compliment that American nuclear policy has 
generally been characterized by continuity, regardless of 
partisanship, regardless of politics, regardless of anything, 
and that continuity is, in many ways, our greatest strength. So 
I am hoping that even in this contentious political environment 
that continuity can be preserved.
    Now, we don't want to just mouth the old boilerplate, and 
we have a heavy obligation on all of us to teach new 
generations why the boilerplate was crafted to begin with and, 
on occasion, to improve the boilerplate, but continuity is a 
great strength. So I am hopeful that in this subcommittee's 
deliberations and in full committee deliberations we can bear 
those important principles in mind.
    For some of my fellow subcommittee members who haven't had 
a chance to see the testimony, there is a lot of information in 
here, and the written testimony, which has of course been 
already accepted by unanimous consent for the record, but 
appreciate the brevity of some of the presenters' statements, 
but the details in the testimony are sometimes awesomely 
important.
    So I appreciate the hard work that was put into crafting 
the testimony.
    I would like to now turn to my ranking member, Mr. Turner. 
Thank you for joining us, looking forward to your questions.
    Mr. Turner. Thank you, Mr. Chairman, and thank you for your 
statement and dedication to this issue being bipartisan, 
because it has, as you and I have said in Congress, since your 
second time in coming to Congress.
    Is that right? When the chair was re-elected back to 
Congress after taking a period where he was not here, we were 
in the same class, so we have the same perspective of time 
period and we have been here during Republican and Democrat 
administrations, Republican and Democrat gavels with the 
speakership.
    And I join him in saying that this has been a bipartisan 
commitment to deterrence, because this is about keeping us safe 
and it has kept us safe for years. And I think as long as we 
continue to be committed to a nuclear policy that is focused on 
deterrence, that we will continue to deter our adversaries, or 
as we have heard from our presenters, the great power conflict.
    I want to welcome General Bunch. You soon will be going to 
Wright-Patterson Air Force Base as the head of Air Force 
Materiel Command. I look forward to you returning to Wright-
Patterson Air Force Base and your leadership there.
    Mr. Trachtenberg, I want to start with you. I have got two 
areas of questions and I am going to ask your opinion and 
General Hyten. Two concepts that we are struggling with in this 
committee are the issues of low-yield nuclear weapons and no 
first use policy.
    And I would like--there are concerns, obviously, that if 
the United States does not have and deploy low-yield nuclear 
weapons, that our adversaries would believe that if they had 
undertaken an attack with low-yield nuclear weapons against us, 
that we might not retaliate because of all of our weapons being 
of such a large size that we would be deterred because we would 
be seen as escalating to their escalate.
    We have a policy in war of trying to limit collateral 
damage, so I have two parts to my question. One, does it affect 
the calculus of our adversaries in a negative way that could 
put us at risk?
    And secondly, are there targets in which we might want to 
use a low-yield nuclear weapon for which a high-yield nuclear 
weapon would be completely inappropriate, understanding that 
obviously that it is the most destructive force to unleash by 
man and the collateral damage that would occur?
    And then, General Hyten, if you would answer the same.
    Mr. Trachtenberg. Well, Congressmen, thank you. I couldn't 
agree more with you in terms of the emphasis on deterrence 
being key. The whole objective behind our policy of course is 
to prevent conflict and certainly to prevent nuclear war. So 
what we are doing and what we are proposing is entirely 
designed to reduce the risk of conflict by enhancing our 
deterrent through creating uncertainty in the mind of any 
potential adversary, whether it be Russia or China or anyone 
else.
    I happen to believe that the supplemental programs that we 
announced in the Nuclear Posture Review in 2018 to include a 
low-yield ballistic missile warhead is certainly designed to 
help ensure that no adversary believes that they would have, at 
any point, any kind of advantage that they believe might be 
exploitable in a way where they felt that they could either 
initiate conflict or escalate conflict to the point where the 
United States might have to think twice about responding at 
all.
    So indeed, the purpose of moving forward with those 
programs is ultimately designed to improve our deterrent and to 
enhance stability.
    General Hyten. So, Congressman Turner, I think the most 
important element of deterrence is not our view, but it is what 
the adversary is thinking. We always have to try to put 
ourselves in the position of our adversaries and we have to 
listen very closely to what they say and watch very closely 
what they do.
    And when we see statements, as well as when we see them 
operate in the ways that you described where they have stated 
they believe that employment of a low-yield nuclear weapon 
would not be responded to by NATO [North Atlantic Treaty 
Organization] or the United States, that causes a concern, and 
so the most important role of the low-yield nuclear weapon is 
to make sure that the adversary doesn't think that would 
happen. So the first role of that weapon is a deterrent weapon 
to make sure they don't cross that line.
    And in order for that to happen, we have to be able to use 
that weapon in an appropriate way. We can't talk about what 
those would be here, but the second part of your question was, 
are there targets that we would employ them against? And I will 
just say for the record that, yes, there is, but we would have 
to discuss specifics in a classified session.
    Mr. Turner. Thank you. So secondly would be the no first 
use policy. I was just at the congressional dialogue at the 
Library of Congress that included author Michael--I am going to 
slaughter this I am sure--Beschloss? Thank you. It is 
Beschloss? Ah, I have it right. Author of Presidents at War. 
And he actually said something and I thought we should probably 
look at it at this committee.
    He said that in the Korean conflict that there was a period 
of time which North Korea and China perceived that we might use 
nuclear weapons in that conflict and that because of their 
concern that it affected the outcome and the behavior of North 
Korea and China. And that at some point in the conflict they 
learned that we had decided not to--thank God, because 
obviously that would be an inappropriate use--but they had 
learned that we had dismissed that nuclear weapons would not be 
used and it affected the conflict negatively for us. Our 
adversaries became more involved.
    So my concern with no first use is again, back to as you 
were saying General Hyten, what is in the minds of our 
adversaries. Mr. Trachtenberg, General Hyten, could you tell us 
as Michael has, what effect that might have on our adversaries? 
Thank you.
    Mr. Trachtenberg. I would agree with you, Congressman 
Turner, and I would also agree with General Hyten in terms of 
what matters most is what is in the mind of our adversary. 
Further, I would agree with Chairman Cooper when he spoke about 
the continuity in U.S. nuclear policy.
    One of the continuities in our policy has been that the 
United States has not adopted a no first use policy, regardless 
of administrations, because among other reasons we extend our 
nuclear security guarantees, the so-called nuclear umbrella or 
the extended deterrent, to allies.
    We do that in order to assure our allies that the United 
States is willing and able to defend their security under the 
most stressing of conditions, that we will be able to do that. 
As I said in my prepared statement, the concern I have with a 
no first use policy is that it may cause others to believe that 
we are backing away from some of our assurances to allies and 
partners and may reduce the level of uncertainty in the minds 
of potential adversaries and cause concern in the minds of some 
of our allies. And so for those reasons, I think a no first use 
policy would be destabilizing rather than stabilizing.
    Mr. Turner. General, you need to turn your microphone on.
    General Hyten. I think Chairman Dunford said it well on 
Tuesday, when he said that anything that simplifies an enemy's 
decision-making calculus would be a mistake. And that is 
exactly what this would do. That would create an environment 
where an adversary could think that crossing the line would be 
okay and that the United States would not respond to whatever 
the situation was.
    I think the current policy is exactly right. It has been 
that way through multiple administrations. I think it is 
important to continue that policy. It improves our strategic 
deterrent. It improves the support that we give to our allies.
    When I travel overseas, the extended deterrent message I 
bring from the United States is hugely powerful to our allies 
that have chosen not to build their own nuclear weapons and to 
trust that the United States nuclear umbrella will cover them.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Cooper. Thank the gentleman.
    Now we will hear from Ms. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for your dedicated service and 
the way in which you have conducted yourself over the years. We 
greatly appreciate it.
    I wanted to follow up on that discussion, because maybe I 
am here as a little bit of a doubter, and probably represent a 
good number of people who are really quite sophisticated enough 
to enter into this discussion and see that from their vantage 
point, as well. So I would be--you know, continue to be 
unconvinced of the value of low-yield nuclear weapons as part 
of our arsenal.
    I would like to ask you,--and you have certainly addressed 
this, Mr. Trachtenberg and General Hyten, particularly--but can 
you tell us on a personal level, how did you arrive at that 
position?
    And if you have someone who, you know, looks at you in the 
eye and says, okay, so what is next? How does that what is 
next--how is that addressed by our current stockpile? You know, 
it calls into question use after that. And what is next?
    Mr. Trachtenberg. Well, if I might, Congresswoman, first of 
all, let me say, I appreciate the opportunity to engage in this 
discussion. It is very important, and I understand there are 
differing views among people who have followed this issue for 
many years.
    I do have to come back, however, to the view--it is my 
personal view that when we are talking about such serious 
matters of nuclear deterrence, it really is very critical for 
us to try to assess as best we can how an adversary or how a 
potential adversary views the issue.
    We have tried to look at, for example, Russian military 
doctrine, statements, military deployments, capabilities, 
investments, exercises. And I have to say that what we have 
seen--what I have seen certainly in recent years has given me 
significant pause and concern in terms of how I think the 
Russian Federation actually views these issues of deterrence.
    And therefore, I look at the issue of, say, a low-yield 
ballistic missile warhead as something that I believe would be 
useful in trying to at least close a gap in capabilities that I 
think Russia may be looking at as affording them some kind of 
advantage that they could use to either engage in nuclear 
coercion or some type of aggression.
    And so I am looking at it from the standpoint of how I 
think the other side may be approaching this and what we might 
be able to do in order to best make them think twice about the 
course that they may be on as a result.
    Mrs. Davis. What comes next, and maybe for all of you too, 
what?
    General Hyten. So ma'am, when I looked at it--I looked at 
it just from a threat perspective. As a commander of--the 
nuclear commander for our country, I have to look at the threat 
and then I have to make sure that my command is best postured 
to respond to that threat as I could.
    And as we looked at it in the Nuclear Posture Review, we 
saw a threat that was out there that we didn't have all the 
capabilities that we thought we needed to respond to that. We 
already have some low-yield nuclear weapons in our arsenal. 
They are in the air leg of the triad. They are not in the 
submarine leg and they are not in the ICBM leg. We felt like we 
needed a small number of immediate response capabilities to do 
that.
    But it is also interesting to note that our low-yield 
nuclear weapons will all be inside of the New START agreements. 
Almost all the Russian nuclear weapons are outside the New 
START agreement, building under platforms that aren't 
accountable.
    Actually, when we remove the weapons, the big weapons from 
the submarine and put small weapons in, we are going to have 
still the same number of weapons, they will just be a smaller 
yield. But we think that smaller yield actually gives us a 
better chance to deter our primary adversary.
    And I think what comes next is that this puts us in a very 
good place that we can deter for the coming--if this was the 
Cold War, we would be going back and we would build all the 
things that the Russians are building now, nuclear-powered 
torpedoes, nuclear-armed torpedoes----
    Mrs. Davis. If we had them in the past and more 
capabilities that you are speaking of, would we have used them? 
At what time?
    General Hyten. If they worked, we wouldn't have used them. 
The whole goal of these weapons is to not use them. That is a 
dichotomy that is hard for many of our fellow countrymen to 
understand. But the key is, by being ready, by being obviously 
ready and communicating that to the adversary, they will not 
cross the line and we will not have to use them. If we are not 
ready someday, that is when I get concerned that somebody will 
cross that line.
    Mrs. Davis. I think my time is up. So I can't go to the 
rest of you, but thank you very much for being here.
    Mr. Cooper. Thank the gentlelady.
    Mr. Bishop.
    Mr. Bishop. Yes, thank you.
    And I thank our witnesses here, it is--you are basically 
all saying the same thing, I guess. One of our tasks is to tell 
the 427 members who aren't here exactly what you guys are 
saying.
    I do have a couple of questions, General Clark, if I could 
start with you, almost a parochial one. Has the Air Force ever 
considered directing the two GBSD [Ground-Based Strategic 
Deterrent] prime contractors to utilize both suppliers of the 
solid rocket motors for the program development and production? 
And if so, would there be a benefit or a programmatic challenge 
of doing that approach?
    General Clark. Sir, thank you for the question. And that is 
under consideration right now. I would have to defer, however, 
to my wingman, General Bunch, who is our acquisition expert and 
he is involved heavily in this process. So, General Bunch?
    Mr. Bishop. I thought we were the only ones that deflect. 
But go ahead, General Bunch, please.
    General Clark. Yes, sir, I am learning.
    General Bunch. So sir, we are in those discussions right 
now.
    We are weighing out the cost, and the schedule, and the 
performance, technical risks associated to the programs if it 
were to go to and direct, that we had to use each of the solid 
rocket motor producers. We are also weighing that against the 
risk to the industrial base. We are having those ongoing 
dialogues within the Department of Defense.
    And then once we look at that equation and where those 
risks are, as the acquisition part of this team, we have to go 
back to the requirer part of this team, General Hyten, and 
explain what those risks are both from a performance, and a 
schedule, and cost and how that plays out on a timeline, so 
that we can determine if we can meet his requirements. So that 
debate and discussion is ongoing right now.
    Mr. Bishop. You are still in the process.
    General Bunch. Yes, sir, we are.
    Mr. Bishop. When you get done with that, I would like to 
actually know the response of that one also.
    General Bunch. Yes, sir, we will.
    Mr. Bishop. General Hyten, either you or the Secretary, let 
me ask the same thing. CBO [Congressional Budget Office], bless 
their hearts, have put a 30-year score on GBSD, or our nuclear 
policy, and it has been described as eye bleeding. Any time 
there is a 30-year score, whoever is doing that uses an eight 
ball and a Ouija board, but what I would like to ask you is 
obviously I have questions on the methodology of CBO.
    But they have both tried to conduct the modernization and 
operations in the same number. So if I could have you kind of 
divest those, tell me, what would the operation number simply 
be--or I am sorry, the modernization number simply be? And 
perhaps even as a percentage of our overall defense budget?
    General Hyten. So I will start, Secretary, if that is okay? 
So the specific numbers are in my prepared statement, and we 
will get to the exact numbers if you would like for the record.
    [The information referred to can be found in the Appendix 
on page 89.]
    General Hyten. But broadly speaking, at the height of the 
build-out of our nuclear capabilities, it would add up to 
about--our numbers say 6.4 percent--the CBO said 7 percent of 
the entire defense budget, which means 93-plus percent of 
defense budget would be available for other things.
    And this is the most important item in our defense budget, 
I think that is a reasonable thing. Now are you talking about 
operations----
    Mr. Bishop. Wait, I think you just said the next question 
which is--if it is 6 percent or 7 percent, is that worth the 
cost?
    General Hyten. I think former Secretary Mattis said it 
right, America can afford survival and this is about our 
Nation's survival. We have to look at it that way and go down 
that path. Now, inside that roughly 6 percent that we get to at 
the height of it a little over 3 percent would be in 
modernization and a little under 3 percent would be operations 
sustainment. And I have the specific numbers in my prepared 
statement.
    Mr. Bishop. We will get them from there. I thank you. And 
let's suppose just for a second that we do something really 
silly around here, and we postpone funding of this--we push it 
to the right. Can you tell me quickly what would be either mid- 
or long-term financial or programmatic significance of any kind 
of delay in that funding?
    General Hyten. As Chairman Cooper pointed out, and so did 
Secretary Trachtenberg, this modernization program started in 
the last administration, but it started late. We should have 
started a decade ago. My biggest long-term concern as 
STRATCOM--I am not concerned about anything today actually. I 
am ready to respond to any threat anywhere.
    But I am concerned 10 years from now unless all of these 
stay on track, that a future STRATCOM commander will sit in 
front of you and say I am concerned about the readiness of my 
force, because the submarines will deliver just in time; when 
Ohio goes off, Columbia comes on; when GBSD comes on, Minuteman 
goes off.
    Mr. Bishop. So 2035 would be out of the question, if we 
keep pushing to the right.
    General Hyten. 2030 is the date where we have to have these 
come online, and everything right now delivers just in time.
    Mr. Bishop. Can I ask just one last favor? GBSD is a 
terrible name, it has no beauty--it sounds like one of those 
medical diseases you try and eliminate; Minuteman, that is 
cute. Come up with a better name. And the other problem I have 
is, is simply if we are going to argue first use, we already 
used it, we have done that historically. Get over it. Let's get 
on with that issue.
    General Hyten. So I concur with the name. It is just 
horrible. And I----
    Mr. Bishop. I keep getting----
    General Hyten [continuing]. And I would encourage my Air 
Force to come up with a name for that program.
    Mr. Bishop. Get that before the numbers.
    General Hyten. Yes, sir.
    Mr. Bishop. Thank you.
    Mr. Cooper. Thank the gentleman. The next questioner will 
be Mr. Brooks--he is gone. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. General Hyten, in the 
past, outside advocates have argued that LRSO [Long Range 
Standoff weapon] is destabilizing. What is your thought?
    General Hyten. Well, we have had nuclear-powered cruise 
missiles, or nuclear cruise missiles for a long time--not 
nuclear-powered cruise missiles, but nuclear-tipped cruise 
missiles for a long time. We have also had conventional cruise 
missiles for a long time. We have had them for years, decades. 
It has never been destabilizing before. I don't know how it is 
destabilizing now.
    It is interesting to note that the Russians employed cruise 
missiles in Syria. Somehow we weren't concerned that they were 
deploying nuclear weapons into Syria and we didn't respond like 
they were deploying nuclear weapons into Syria.
    Cruise missiles have been dual-use capabilities for a long, 
long time and nothing changes in 2019 that wasn't the same in 
the last century. It is the same structure. I don't believe 
they are destabilizing.
    Mr. Rogers. Excellent. General Clark, in the beginning of 
the GBSD program, my buddy's favorite name, did the Air Force 
do an assessment on the service life extending of the Minuteman 
III versus a GBSD? And which is the most cost-efficient way?
    General Clark. Yes, sir, thank you for that question. We 
did do an analysis of alternatives on GBSD and considering the 
continued sustainment of Minuteman III was one of those 
alternatives that was analyzed, and it is less cost effective 
to try to extend the life of Minuteman III. We have several of 
the components that are becoming obsolete--the propulsion 
system, the guidance system, even the ability to provide the 
solid rocket motor fuel--we only have one more opportunity to 
do that for these weapons. After that we have to--we will have 
to buy a new weapon.
    And as General Hyten stated, if we continue to push this 
decision down the road, these systems that are part of the 
overall system start to come off, the missile comes offline, 
and then it costs us even more money to recapitalize and 
modernize.
    So our best alternative as General Hyten stated is to 
recapitalize now. We will sustain Minuteman III until GBSD 
comes online, but we are right at the point of being able to 
make that happen now, sir.
    Mr. Rogers. When is it supposed to come online?
    General Clark. It--we start coming online in the early 
2030s and by the mid 2030s we are complete, and I will----
    Mr. Rogers. We are going to pass the date of the end of 
service life before those are online----
    General Bunch. Congressman Rogers, can I add just one item 
into that? I am sorry, sir, I didn't mean to interrupt you, I 
apologize. It is a great question. Our IOC [initial operating 
capability] right now for GBSD is 2029. That is when we have 
reached the initial operational capability and our full 
operational capability is 2036.
    So we are tracking, exactly as General Hyten said, we need 
these by 2030, we are right on the timeline. That is why it is 
so critical that we continue to execute these programs the way 
we are.
    Then one other item I would add to what my wingman said 
here is, even if we did the SLEP [service life extension 
program] on the Minuteman III, there are requirements that 
General Hyten has that we do not believe we would be able to 
meet. So it is not just about the cost, it is about the ability 
to meet the warfighter requirement that were also weighed in to 
that decision when we did the analysis of alternatives.
    Mr. Rogers. Admiral Wolfe, can you talk about the--what the 
Navy is doing with the PEO [program executive office] Columbia 
class to better integrate the work you were doing in SSP with 
the overall program? What is your assessment of the pace of the 
Columbia replacement?
    Admiral Wolfe. Yes, sir. So Columbia, although not in my 
direct portfolio, we stay very, very close on the development 
on the Columbia-class submarine. That is still on plan. As a 
matter of fact, if you look at what CNO [Chief of Naval 
Operations] has just published in his design for superior 
2.0,<dagger> it actually--he challenges that program to pull 
the Columbia left and get it out sooner, per General Hyten's 
point of, you know, we are line on line right now.
---------------------------------------------------------------------------
    <dagger> Referring to the document ``A Design for Maintaining 
Maritime Superiority, Version 2.0'' released December 17, 2018.
---------------------------------------------------------------------------
    So that program is moving forward. Obviously, I know 
Secretary Geurts has briefed you on--they have stood up a 
separate program executive officer specifically for Columbia 
because this is the Navy's number one acquisition program. And 
so, that is for the submarine.
    From our perspective, what we are doing on the weapons 
system, we are on track for both modernizing the Ohio weapons 
system, which will then go on the Columbia, so we will not have 
two populations. So all of those efforts are on track right 
now, sir.
    Mr. Rogers. Excellent. Thank you all for being here and 
thank you for your service to our country. I yield back, Mr. 
Chairman.
    Mr. Cooper. I thank the gentleman. Ms. Horn.
    Ms. Horn. Thank you, gentlemen, for being here today. And I 
want to echo Mr. Cooper's comments and everyone's comments 
about the importance of making sure that we are creating 
consistency and prioritizing. So I want to continue along that 
line of questioning, and I hope you can help me understand a 
few things.
    Given that we don't have unlimited funds to do all that we 
need to do--and I am sure we could continue to invest in more 
things and making our choices--can you help me understand a 
little bit more on the--I know we have been talking along the 
lines of the current low-yield weapons and the modernization 
and transitioning to the new ones, that distinction of if there 
any pathway to draw down one or transition to--between the two. 
And that--General Hyten and Mr. Trachtenberg.
    General Hyten. Ma'am, one of the good things about the low-
yield nuclear weapon, its nomenclature is the W76-2. It is 
actually just a modification of the W76-1 that has been going 
through a production line in the Department of Energy for the 
last few years. And as they are approaching the end of that, 
the only thing we had to do to build the W76-2, the low-yield 
nuclear weapon, was make what--you know, they are nuclear 
weapons, so there is nothing minor about a nuclear weapon.
    But in the realm of the work that is done at the nuclear 
weapons lab, it is a fairly minor adjustment to that weapon to 
make it a low-yield nuclear weapon. That work has begun this 
year; that work is underway right now.
    That budget is a very small amount of the overall budget to 
get to that. And then the employment on the submarines is 
actually a straightforward process. As we build out the 
submarine, as we go through--we can talk about how we do that 
in a classified world--but as we go through that, we will just 
take this weapon, put it into the missile--and we still have to 
load the missile, just like you always do. So there is really 
no cost delta there. In the overall scheme, it is a very small 
number.
    Mr. Trachtenberg. Congresswoman, I would agree with you, in 
terms of the necessity of prioritization. And obviously, this 
is something that the Department looks at very carefully. But I 
would echo General Hyten's comments, as well, in terms of 
looking at the low-yield ballistic missile warhead, the 
program, as relatively inexpensive vis-a-vis other programs.
    We have asked in the fiscal year 2020 budget for about 
$19.6 million to pursue that program. We do think it is a 
reasonable investment to make for the ultimate objective of 
enhancing our deterrent against what is the most destructive 
potential possibility that we can think of.
    Ms. Horn. Thank you. And following on with that, that line 
of prioritization, with our current challenges, this is clearly 
an incredibly critical area, but with our current challenges in 
the--in the rest of our strategic space, missile defense, new 
technology development space, and the growing numbers of 
adversaries and the attention and the money and the development 
that they are putting into this, I would just like to hear from 
both of you, and then if there is time, anyone else, about what 
you see as the right balance between investments in those 
critical areas so that we don't lose our strategic advantage 
there and here in the nuclear arena, please?
    Mr. Trachtenberg. Certainly, Congresswoman. I do think that 
we have certainly intended to strike the right balance in our 
investments going forward, and I think the budget request that 
has been submitted to Congress reflects our prioritization 
based on our assessment of what the right balance is.
    We have, of course, focused on readiness, but also on 
modernization in this budget. You are exactly right to note 
that adversaries and potential adversaries have been moving 
forward with advanced technologies quite at a rapid pace. We 
all know that technology advances quite substantially, very 
rapidly.
    We believe the investment priorities we have set out, at 
least in terms of our recapitalization of the nuclear force, 
some of the supplemental capabilities that we have been 
speaking about that were reflected in the Nuclear Posture 
Review, as well as in the missile defense review and some of 
our missile defense priorities, reflect not only an 
appreciation but an understanding that we need to invest more 
in terms of the advanced technologies, not only for ourselves, 
but also to counter the investments that potential adversaries 
are making on those technologies, as well.
    Ms. Horn. I think my time has expired, so I will defer to 
the chair.
    Mr. Cooper. The gentlelady's time has expired. The 
gentlelady from Wyoming.
    Ms. Cheney. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today. General 
Hyten, thank you very much for hosting me at STRATCOM recently. 
It was a very useful and informative day spent there, so I 
appreciate very much your taking the time to do that.
    I wanted to ask you first, General Hyten, about pit 
production, and if you could talk a little bit about sort of 
where we stand and specifically what is driving the requirement 
for the 80 pits per year that we are seeing now.
    General Hyten. So thank you. It was good to have you at 
Offutt. Thank you very much for coming and spending time at 
STRATCOM. We have had a little water there since you were 
there, but STRATCOM is doing fine. The base has got some 
serious damage, but STRATCOM is a pretty amazing command. We 
are doing just fine.
    When you look at pit production, I think it is important to 
realize the United States really hasn't been producing 
plutonium pits for quite a while. We have been using old 
plutonium pits to refurbish and build. Even the new weapons are 
using old plutonium pits.
    What I am concerned about, from a STRATCOM perspective, as 
we look in the out-years and we get into future, we could be 
dealing with 100-year-old plutonium pits sometime. And we don't 
really know what a 100-year-old plutonium pit looks like. Now, 
plutonium has a very long half-life.
    But I have looked at the plutonium pits. I have looked at 
that structure. And I am concerned about building new weapons 
that will have 100-year-old plutonium pits. I think that is 
just a risk that the United States should not take.
    We need to reinvigorate that process. And so we have gone 
through a detailed analysis with the Department of Energy and 
the Department of Defense, but STRATCOM has been in the middle 
of it, to look at exactly what we need and we have some very 
specific numbers. The minimum requirement is by 2030 we need a 
plutonium pit production capacity up to 80 across the 
enterprise. The first step to getting that is 2026 we need 30 a 
year, by 2026.
    Those first 30 will happen at Los Alamos. We have a plan 
with the Department of Energy that we support that will get to 
80 at both Los Alamos and Savannah River in South Carolina to 
get to what we need for the future, but that will put us on a 
sustainable path through this century to make sure we have the 
right infrastructure for our future nuclear stockpile.
    Ms. Cheney. And I am hopeful that--it is too bad we weren't 
able to get NNSA [National Nuclear Security Administration] 
here today to talk to us about this. We will follow up with 
them. When you look at what we are doing right now to get to 
the 30 by 2026, what is your sense of the progress we are 
making? Are you comfortable that it is sufficient? What is your 
feel about that?
    General Hyten. So I am comfortable that all energy is being 
put on that. I still worry about that because it is going from 
zero to 30. And 30 doesn't sound like a big number probably to 
many of the committee, but going from zero to 30 is a huge step 
because plutonium is a very difficult material to work with. 
And so we watch that very closely and I have a stockpile 
assessment team that I send to Los Alamos, I have my staff go 
to Los Alamos.
    Because I have to certify the nuclear stockpile every year, 
I probably spend a lot more time down deep in the technical 
weeds than most combatant commanders do, but that is one of the 
most important things I do is certify the nuclear stockpile and 
I have to understand where that is.
    So Administrator Lisa Gordon-Hagerty and I have a very, 
very close relationship, and we are working hand-in-hand to 
make sure that we can deliver that capability the Nation needs. 
But it is going to take a lot of work to get there.
    Ms. Cheney. Thank you. And then turning to our space sensor 
layer, Missile Defense Agency [MDA]--we have talked in this 
committee and certainly we have provided an increase of $73 
million last year for that. But now this has appeared as the 
top issue on the unfunded priorities list for MDA.
    Could you give us a little bit of enlightenment in terms of 
what is happening there and what exactly the Department is 
doing in response to the hypersonic and ballistic defense space 
spending?
    General Hyten. So, Congresswoman, in my letter to Congress 
this week I also noticed that I am watching closely the space 
layer of our missile defense capabilities, as well.
    I watch it from a STRATCOM perspective though, because the 
thing that enables our deterrence is the fact that we can see 
any threat from wherever and we can characterize it, attribute 
it, and then respond to it if we have to. That enables our 
deterrent. We need that in the space sensor layer, and we 
appreciate very much the $73 million that Congress appropriated 
last year.
    That is now transitioning into the Space Development 
Agency. Dr. Mike Griffin has that responsibility. We are 
pushing hard to make sure there is $15 million in the budget 
this year for sensor technology. There is a DARPA [Defense 
Advanced Research Projects Agency] program that is looking at 
that.
    Dr. Griffin has got to integrate all those things together. 
We certainly were hoping for increased funding this year, but 
the Department has to make difficult decisions as we go 
through. But Dr. Griffin has got his job this year putting all 
those pieces together and having a good plan for this Congress 
next year.
    Ms. Cheney. Thank you, General. My time has expired.
    Mr. Cooper. The gentleman from Colorado.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for all 
the witnesses for being here and for your service to our 
country. Admiral Wolfe, regarding our hypersonic weapons 
programs, I have got several questions. I hope these haven't 
already been asked. I was out of the room at another committee 
hearing, but I am back now, so I would like to pursue this line 
of reasoning a little bit.
    Some of my colleagues on the other side of the aisle have 
worried about the potential for a miscalculation. They worry 
that the Russians or Chinese won't be able to tell the 
difference between a sub-launched hypersonic and a sub-launched 
nuclear weapon. So you as someone who has worked on both types 
of systems, can you help clarify key observable differences 
that would help put our minds at ease?
    Admiral Wolfe. Yes, sir, thanks for the question. So at the 
unclassified level what I will tell you is that there is no 
doubt when a weapon initially comes out of a submarine 
launched--a submarine, they look very much the same when they 
come out.
    But what I will tell you is because of the difference in a 
hypersonic and a ballistic missile, that quickly for anybody 
that can see it can quickly tell that they are not the same. 
That is the first issue.
    If you look at the size of the boosters that we are talking 
about, the signature is much different. When you look at the 
flight profile, they quickly diverge between the two. That is 
the first key issue from a technology perspective.
    Second is, if you look at where we believe a conventional 
hypersonic would actually be deployed, it would be in a much 
different area than where our SSBNs [ballistic missile 
submarines] deploy, so that would be an indicator.
    And, thirdly, which is also key to that, is there is no 
plan to put a conventional weapon onto one of our strategically 
loaded SSBNs. So again, you will have separation from those 
two.
    Mr. Lamborn. Okay, thank you. And, Admiral Wolfe and Mr. 
Trachtenberg, what are the operational advantages of a land-
based versus a sub-based hypersonic weapon?
    Mr. Trachtenberg. The operational advantages of a land-
based device, a sub-based hypersonic weapon--I think in terms 
of the operational details I will defer to Admiral Wolfe on 
that. But obviously much depends on the basic mode of the 
weapon itself and where the weapon is based. So depending upon 
where we would look to base a hypersonic weapon against a 
particular threat, I think that would factor into the 
operational characteristics----
    Mr. Lamborn. So geography.
    Mr. Trachtenberg. That would be one factor, yes, sir.
    Mr. Lamborn. Okay.
    Admiral Wolfe. Yes, sir, I would agree. And of course, it 
is all about access and it is all about the target set that you 
need to go after. I will tell you, there are advantages to 
both, which is why as part of what we are doing with our 
memorandum of agreement in the Department of Defense, we are 
commonly developing this technology between us, the Army, the 
Air Force, and even the Missile Defense Agency for just the 
basic technology. So I think, again, it gives you a portfolio 
of options with that weapon.
    Mr. Lamborn. Okay, thank you. And lastly, Admiral Wolfe, we 
just had a closed briefing with you on hypersonic weapons but 
the organization and budgetary lines are still unclear. How 
much are we--how much is the DOD asking for hypersonic weapon 
development in this year's budget? And how much of that are you 
responsible for? And what are the specific milestones you want 
to reach, for what you can say in this setting?
    Admiral Wolfe. Yes, sir. So from a DOD perspective, I don't 
have the overall DOD number, so I would ask that we take that 
for the record and get back----
    Mr. Lamborn. Okay.
    Admiral Wolfe [continuing]. To you with the DOD line.
    [The information referred to can be found in the Appendix 
on page 89.]
    Admiral Wolfe From a Navy perspective, my budget request in 
2020 is for $593 million, and what that does is it continues 
the effort that we started in fiscal year 2019 for both getting 
to additional flight testing of the actual hypersonic body 
itself to continue to prove the technology.
    It continues the development effort for the booster, which 
the services will use for that weapon. And then it also 
continues the integration onto the platforms--the studies for 
which platforms it will be deployed in the Navy, and to then 
start that integration into those platforms.
    Mr. Lamborn. And do you have any particular milestones that 
you would like to reach or is that still to be determined?
    Admiral Wolfe. So obviously getting to key flight test is 
critical, and that is about all I can say in this forum, sir. 
In a classified forum, we could talk about what--what we are 
planning and when we are planning on doing it. Yes, sir.
    Mr. Lamborn. Certainly. Okay, thank you. And once again 
thank you all five of you for your service. Mr. Chairman, I 
yield back.
    Mr. Cooper. Thank the gentleman. I think all members of the 
committee have had a chance to ask a question. If anyone has a 
pressing question they would like to follow up on, I would be 
happy to yield to you. Otherwise, I will conclude the hearing 
with an opportunity--Ms. Davis?
    Mrs. Davis. Thank you, Mr. Chairman. Just very briefly, 
could you just clarify for me that the Pentagon had proposed 
funding in the 2020 budget for the low-yield SLBM [submarine-
launched ballistic missile]. Is that in the OCO [overseas 
contingency operations] budget?
    Admiral Wolfe. Ma'am, I would have to go check. I don't 
believe it is in the OCO budget. If I look at my line, it is 
rolled up into other efforts that we are doing for RDT&E 
[research, development, test, and evaluation]. But I would have 
to take that for the record to actually verify that. That is 
for the low yield. There are other parts of my budget which are 
in the OCO line, yes, ma'am.
    Mrs. Davis. Mr. Trachtenberg, where is it?
    Mr. Trachtenberg. No, I believe that is correct. I believe 
that is correct, Congresswoman. But I would want to confirm 
that for the record.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Davis. Correct that it is not in the OCO budget?
    Mr. Trachtenberg. That is my understanding. But I would 
like to confirm that.
    Mrs. Davis. Okay, apparently somebody saw it there.
    General Hyten. And then the actual weapon itself is in the 
Department of Energy budget.
    Mrs. Davis. Okay, okay. All right, because obviously there 
are concerns about its use, where the OCO budget is used for. 
Okay, thank you very much.
    Mr. Cooper. I thank the subcommittee members for their 
questions. I think the only major topic that hasn't been 
touched on is the space force. And I would like to give General 
Hyten a few minutes here to summarize his ideas for the space 
force.
    General Hyten. Thank you, Chairman. I appreciate the 
opportunity. I think there is a couple things I would like to 
share with the committee. I think first and foremost, I 
appreciate this committee taking on space as a warfighting 
challenge a couple years ago.
    And I very much appreciate the President weighing in and 
talking about space as a warfighting domain. It is a place now 
that we conduct military operations. It is a place that our 
adversaries are building capabilities and deploying 
capabilities to threaten us in space, and we have to deal with 
it seriously.
    I think the most important thing we can do in the near term 
is stand up a new unified command moving space out from under 
my command, out from under U.S. Strategic Command, and creating 
a new U.S. Space Command focused 100 percent of the time on the 
space problem.
    Because I have been in the space business my whole life, 
and I love the space business. But I am the STRATCOM commander. 
And space at best will never be higher than my third priority. 
It has to be nuclear first, nuclear command and control second. 
Space will never be higher than my third priority.
    I get to spend so little time on space because I have to 
focus on nuclear. We need a commander focused on space all the 
time. And that commander was nominated this week, General Jay 
Raymond. And I hope the Senate takes up that nomination 
quickly.
    The second piece is the space force. The President said we 
need a structure inside the Pentagon focused on space all the 
time. And I support that structure.
    I have to admit, I had some concerns when we were talking 
about a separate service, separate and distinct from the Air 
Force. But when the President made the decision and said it has 
got to be under the Air Force, I am all in.
    I think the Vice President said it exactly right. He said, 
so creating the space force within the Air Force is the best 
way to minimize duplication of effort and eliminate 
bureaucratic inefficiencies. That is what the President and the 
Vice President told us to do.
    Now, I understand in meeting with many of you over the last 
24 hours that there are some concerns about that. But I just 
want you to know from my perspective, if you see any 
bureaucratic inefficiencies in there, if you see any 
duplication of effort, I would support just taking that stuff 
out. We need a streamlined focus.
    The problem we are trying to solve there is there are so 
many people in the Pentagon that are in charge of space. We 
need one person in charge of space that will then organize, 
train, and equip forces for the new U.S. Space Command. That is 
the structure that has to be out there.
    I think the President's vision is right, and it is also 
very similar to where this committee was starting as long as 2 
years ago. I think somewhere we can come to agreement on what 
that is and create that structure that will allow us to deal 
with the space problems we need in the future. So thank you 
very much for letting me talk about that.
    Mr. Cooper. The gentleman from Ohio.
    Mr. Turner. I just want to thank the chairman for asking 
that question. That was a great answer, General Hyten. I 
greatly appreciate it. I think that really is going to help our 
debate here.
    And obviously, we look to your expertise because--you know, 
it is real application of what is happening. So, thank you for 
that answer. And, Mr. Chairman, thank you for asking that 
question.
    Mr. Cooper. I thank the gentleman. If we could get your 
answer on a YouTube video and require all of our colleagues in 
the other body to watch that, I wouldn't even mind if it was 
set to music or something like that, anything to induce them to 
watch it.
    Mr. Turner. Just think----
    Mr. Cooper. It would be helpful.
    Mr. Turner. Can we put an emoji in the background of you 
dancing?
    Mr. Cooper. No, no, no. Perhaps John Lewis, he has a very 
good dance. But there are few more important topics than this 
for this Congress, so I appreciate your weighing in. I would 
like to thank all of the witnesses for their excellent 
testimony.
    The subcommittee is adjourned.
    [Whereupon, at 12:05 p.m., the subcommittee was adjourned.]



      
=======================================================================


                            A P P E N D I X

                             March 28, 2019

=======================================================================

      
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2019

=======================================================================

      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 28, 2019

=======================================================================

      

             RESPONSE TO QUESTIONS SUBMITTED BY MR. BISHOP

    General Hyten. As outlined in the 2018 NPR, current estimates show 
that maintaining and operating the current nuclear forces requires 
between 2% and 3% of the DOD budget. To recapitalize/modernize the 
nuclear enterprise it is projected to be another 4%. At its highest 
peak in 2029, it is estimated to be 6.4% of the overall DOD budget.
    Below chart provided from the Nuclear Posture Review to show 
nuclear enterprise funding to 2040.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. LAMBORN
    Admiral Wolfe. The FY 2020 Department of Navy Conventional Prompt 
Strike request is $593 million and supports the following: 1) Flight 
Experiment 2, 2) booster development, and 3) platform integration 
studies. The Navy defers to OSD to provide the overarching DOD 
hypersonics FY 2020 budget request.   [See page 20.]



      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 28, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. Why do you believe Russia possesses a large NSNW force? 
How does this force affect U.S. national security? Has DOD considered 
utilizing negotiations to reduce this force; have you approached Russia 
about lowering its NSNW numbers?
    Mr. Trachtenberg. After the Cold War, Russia retained, and is now 
modernizing, its large NSNW force because it provides Russia a 
strategic advantage vis-a-vis the United States and NATO. The 2018 
Nuclear Posture Review identified this as a potential vulnerability in 
deterrence as it indicates Russia's mistaken belief that it could use 
NSNW forces to achieve its objectives in a conflict with the United 
States and our NATO Allies. The tremendous disparity in NSNW forces 
between the United States and Russia makes it very difficult to 
negotiate reductions and Russia has shown little interest in doing so.
    Mrs. Davis. Have you ever had a discussion with Russia about their 
nuclear posture, and in particular an escalate-to-de-escalate (E2D) 
strategy, which the Nuclear Posture Review claims is part of Russia's 
nuclear doctrine? How did they respond? Do you view this doctrine as 
offensive or defensive in nature?
    General Hyten. I would like to have such a discussion, but I have 
never had a conversation with Russia about their nuclear posture.
    ``Escalate to deescalate'' is an outdated term from Russian 
academic writings dating back to the 1990's. What we know from these 
same academic and military journals, is Russian thought has evolved 
into ``escalation dominance'' or, more aptly, ``escalate to win.'' This 
doctrine is offensive in nature and possibly encourages preemptive 
nuclear use.
    Mrs. Davis. During your testimony you noted that funding for the 
W76-2 low yield warhead was not requested in OCO-for-Base. Would you 
confirm that this is the case and describe, in detail, where funding 
for W76-2 deployment is requested? If it was requested in OCO-for-Base, 
why would the administration do so?
    Admiral Wolfe. The PB20 Budget Request for the Department of the 
Navy includes funding for the deployment of the W76-2 warhead. The Navy 
has requested $19.6 million for this effort. All of this money is 
included under the line item for TRIDENT II Mods. The entire line item 
(net total of $1,177.251 million) is part of the OCO-for-Base request. 
The Budget requests OCO for base requirements in support of the 
National Defense Strategy. The Budget requests these funds in OCO to 
comply with the budget base defense caps included in the Budget Control 
Act of 2011.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. WILSON
    Mr. Wilson. The Nuclear Posture Review provides a framework for 
modernizing the nuclear triad. Can you discuss the role and importance 
of developing plutonium pits in nuclear modernization and how it 
impacts deterrence?
    General Hyten. Plutonium pits are the nuclear triggers, which allow 
our weapons to function.
    The current pits have been in the stockpile for decades and are 
approaching their end-of life. Although we still have confidence in 
these complex material systems, it is essential the pits be replaced 
before we have used all available margin. We are approaching that 
point; however it is difficult to know exactly when it might occur. And 
while plutonium does have a long half-life, it is part an exquisitely 
engineered pit, with many other materials.
    Assessments on plutonium pit production requirements are based upon 
the age of the stockpile and an understanding of plutonium pit/primary 
aging at the time of the assessment. We are now over a decade later 
from the 50-80 ppy assessment. During this time period the stockpile 
continued to age and our understanding of the effects of aging on 
plutonium pits/Primary assemblies improved. The net result is the 
requirement for at least 80 pits per year by 2030, synchronized with 
planned warhead modernization programs.
    Past decisions to delay, defer, or cancel programs to recapitalize 
plutonium pit manufacturing have forced us into this ``just in time'' 
replacement scenario and increased the rate at which we must replace 
the aging plutonium components in the stockpile. Continuing to delay 
progress on recapitalizing pit manufacturing will only further increase 
and require us to produce even more plutonium pits annually for the 
stockpile in order to ensure the continued safety, security and 
effectiveness of our fielded systems.
    ``At least 80 pits per year'' means the National Nuclear Security 
Administration must be able to produce a minimum of 80 pits per year 
for the stockpile to meet nuclear modernization requirements. The U.S. 
requires this sustained plutonium manufacturing capability of at least 
80 pits per year by 2030 to address known aging concerns, support 
projected stockpile modernization programs, and maintain a minimal 
capability to respond in a timely manner to future uncertainty. Failure 
to achieve this level of production will introduce additional risk to 
sustaining an effective nuclear deterrent. It is not a matter of if, 
but when we will exceed the point where we are no longer confident the 
weapon will operate reliably as designed.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. What is the State Department's contribution to OSD-P's 
thinking on arms control issues in the interagency process, and in how 
you view treaty effectiveness, compliance, and implementation 
activities?
    Mr. Trachtenberg. We work very closely with the State Department on 
arms control, verification, and compliance issues, both directly and 
through the interagency process. The State Department is a valued 
partner. It leads a number of interagency working groups that 
continually assess the compliance of our arms control partners and 
oversee interagency coordination of U.S. implementation policy, 
culminating in coordination and publication of its annual Arms Control 
Compliance Report. State Department further coordinates the 
interagency's collective efforts to keep our allies informed of our 
current and future arms control efforts. In particular, it was key to 
helping build diplomatic support both for NATO's declaration of 
Russia's material breach of the INF Treaty, and for the U.S. suspension 
of its obligations under the INF Treaty.
    Mr. Larsen. Do you view China as a more important strategic 
competitor than Russia in the long run? How would China react 
politically and in nuclear doctrine to New START expiring, and the U.S. 
and Russian nuclear forces being completely unconstrained? Is this more 
or less likely to lead to China expanding its nuclear force? Would New 
START keeping constraints on and insights into Russia's nuclear forces 
make your deterrence mission for China easier or harder?
    General Hyten. Long term strategic competitions with both China and 
Russia are the principal priorities for the Department. That said, 
China's pursuit of regional dominance is the major challenge to U.S. 
interests in Asia.
    China may place some value on New START as it limits the strategic 
offensive arsenals of both the U.S. and Russia.
    However regardless of New START, China is advancing a comprehensive 
modernization program which includes the continued development and 
deployment of a nuclear triad combined with anti-access/area denial 
(A2/AD) and power projection operations--and it is expected to remain 
on this path well into the future.
    China continues to increase the number and capabilities of its 
nuclear forces and its lack of transparency regarding the scope and 
scale of its nuclear modernization makes predictions of its future 
intent problematic.
    The Nuclear Posture Review provides a tailored U.S. strategy for 
China which is not predicated upon insights into Russia's nuclear 
forces. Hence, I would not expect our deterrence mission for China to 
be affected by the New START Treaty with Russia.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Recently, the requirements for plutonium pit 
production have led to an increase in planned production from up to 50-
80 pits, to ``at least 80 pits'' per year. Can you give the Congress 
clarity on why the number of pits per year has increased, and what 
exactly the administration means by ``at least 80 pits per year''?
    General Hyten. Assessments on plutonium pit production requirements 
are based upon the age of the stockpile and an understanding of 
plutonium pit/primary aging at the time of the assessment. We are now 
over a decade later from the 50-80 ppy assessment. During this time 
period the stockpile continued to age and our understanding of the 
effects of aging on plutonium pits/Primary assemblies improved. The net 
result is the requirement for at least 80 pits per year by 2030.
    Past decisions to delay, defer, or cancel programs to recapitalize 
plutonium pit manufacturing have forced us into this ``already late-to-
need'' replacement scenario and increased the rate at which we must 
replace the aging plutonium components in the stockpile. Continuing to 
delay progress on recapitalizing pit manufacturing will only further 
increase and require us to produce even more plutonium pits annually 
for the stockpile in order to ensure the continued safety, security and 
effectiveness of our fielded systems.
    ``At least 80 pits per year'' means the National Nuclear Security 
Administration must be able to produce a minimum of 80 pits per year 
for the stockpile to meet nuclear modernization requirements. The U.S. 
requires this sustained plutonium manufacturing capability of at least 
80 pits per year by 2030 to address known aging concerns, support 
projected stockpile modernization programs, and maintain a minimal 
capability to respond in a timely manner to future uncertainty. Failure 
to achieve this level of production will introduce additional risk to 
sustaining an effective nuclear deterrent. It is not a matter of if, 
but when we will exceed the point where we are no longer confident the 
weapon will operate reliably as designed.
    Mr. Garamendi. Absent Russia materially breaching the New START 
Treaty, do you see any reason for the United States to withdraw from 
the treaty before it expires in 2021?
    General Hyten. No. The New START Treaty's verification regime 
(i.e., on-site inspections, database exchanges, notifications) provides 
transparency into Russian strategic offensive capabilities, 
contributing to our understanding of their nuclear force structure and 
pace of modernization.
    However, New START does not cover the weapons Russia is developing 
outside of the treaty and my desire is to have all nuclear weapons as 
part of a future strategic arms treaty.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Absent Russia materially breaching the New START 
Treaty, do you see any reason for the United States to withdraw from 
the treaty before it expires in 2021?
    General Hyten. No. The New START Treaty's verification regime 
(i.e., on-site inspections, database exchanges, notifications) provides 
transparency into Russian strategic offensive capabilities, 
contributing to our understanding of their nuclear force structure and 
pace of modernization.
    However, New START does not cover the weapons Russia is developing 
outside of the treaty and my desire is to have all nuclear weapons as 
part of a future strategic arms treaty.
    Ms. Speier. If New START were to expire, how would your advice to 
the President change regarding the current U.S. nuclear force posture? 
How would your military planning change, including your responses to 
Russia potentially increasing the number of nuclear weapons pointed at 
the United States, after 2021?
    General Hyten. Regardless if New START were to expire or not, my 
advice to the President would not materially change.
    New START is beneficial to STRATCOM. The New START Treaty's 
verification regime (i.e., on-site inspections, database exchanges, 
notifications) provides transparency into Russian strategic offensive 
capabilities, contributing to our understanding of their nuclear force 
structure and pace of modernization. I believe in any situation I can 
foresee in the next 10 years I can provide an effective defense as long 
as I have a capable triad with the weapons that we've defined. Beyond 
ten years I have concerns regarding weapon development outside of New 
START. Without a verifiable and comprehensive arms control treaty it is 
difficult to understand where Russia is going in developing torpedoes, 
cruise missiles, and hypersonics. Likewise, if Russia goes in a 
different direction it would be harder to identify this shift.
    While it is difficult to predict with any certainty whether Russia 
would increase their strategic nuclear weapon stockpile outside of a 
New START agreement, I think the impacts would probably be more 
geopolitical in nature and unlikely to drive significant changes in 
U.S. force structure.
    Our comprehensive deterrence strategy as defined in the NPR 
includes the force structure and stockpile to hedge against prospective 
and unanticipated risks. A fully modernized nuclear Triad, including 
requisite NC3 and supplemental capabilities, provide the diversity and 
flexibility to tailor U.S. strategies for effective deterrence as the 
geopolitical landscape evolves.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KEATING
    Mr. Keating. At the Munich Security conference in mid-February, 
Polish foreign minister Jacek Czaputowicz stated the following: ``We 
are not very much in favor-we are definitely even against--deployment 
of [INF Treaty prohibited] missiles on our soil. But we will work out 
the solution with our allies in NATO because it must be united response 
to Russian threat in that case. . . If we do it maybe [host new 
missiles] it will be a decision of all the alliance.''
    Do you agree that any decision to base U.S. ground-launched 
intermediate-range missiles should only be considered if it is 
supported by ``all of the alliance''? Has the Pentagon begun 
conversations with any alliance members about hosting INF-range 
missiles on their territory? Will the administration commit to briefing 
Congress on plans for the potential basing of INF range missiles 
outside the United States?
    Mr. Trachtenberg. We expect to work closely with allies in 
determining the appropriate response to Russia's evolving military 
posture, including its deployment of the INF Treaty-prohibited, dual-
capable SSC-8 missile. This response could very well entail deployment 
of conventional ground-launched intermediate range systems, when such 
systems are ready, if we believe they contribute to NATO's deterrence 
and defense posture. We will keep Congress informed as we proceed with 
development.
    Mr. Keating. General Hyten's testimony before the committee noted 
that:
    ``Russia is also developing and intends to deploy novel strategic 
nuclear weapons, like its nuclear-armed, nuclear-powered underwater 
unmanned vehicle and intercontinental-range cruise missile, which 
Russia seeks to keep outside of existing arms control agreements.''
    Given the administration's stated commitment to verifiable and 
enforceable arms control efforts that advance U.S. and allied security, 
please describe in detail the administration's efforts to constrain 
Russia's new nuclear systems systems. Does the administration have a 
plan to address these new systems through negotiations with Russia? Has 
the administration made any progress in constraining these systems? 
Please provide dates of all discussions, including interagency 
discussions, with Russia where such systems were discussed, and at what 
level they were held, since the beginning of the administration.
    Mr. Trachtenberg. We are very concerned about the enormous 
investments Russia is making in nuclear forces that are not captured by 
existing arms control agreements, including its increasingly capable 
NSNW arsenal and several of the ``novel'' systems General Hyten 
referred to in his testimony. We have raised our concerns with Russia 
regarding its new novel systems through diplomatic channels, including 
during three sessions of the New START Treaty's Bilateral Consultative 
Commission. Going forward, any future arms control regime must account 
for these systems in some manner.
    Mr. Keating. In NATO's statement after the administration's 
announcement to suspend implementation of the INF Treaty, the Alliance 
reiterated its commitment to ``committed to the preservation of 
effective international arms control, disarmament, and non-
proliferation.'' How would the absence of any strategic arms control 
limitations and an unconstrained Russia complicate Alliance cohesion, 
and in particular NATO nuclear planning?
    Mr. Trachtenberg. The consensus 2018 Brussels Summit Declaration 
makes clear that allies remain open to arms control, with the aim of 
improving the security of the Alliance, taking into account the 
prevailing international security environment, but that the conditions 
for achieving further disarmament goals have not become more favorable 
in the last several years. Although this situation is regrettable, the 
Alliance has maintained cohesion in the face of Russian behavior that 
has impeded progress on arms control (e.g., Russia's suspension of the 
Conventional Forces in Europe (CFE), and Russia's effective termination 
of the INF Treaty). In the presence of such uncertainty, the Brussels 
Summit Declaration also points out that NATO continues to adapt in 
order to ensure that its deterrence and defense posture remains 
credible, coherent, resilient and adaptable to a changing security 
environment, and that it has taken steps to ensure its nuclear 
deterrent remains safe, secure, and effective.

                                  [all]
</pre></body></html>
